OIG Audit Report GR-80-09-003

Compliance with Standards Governing Combined DNA Index System Activities at the North Louisiana Criminalistics Laboratory, Shreveport, Louisiana
Audit Report GR-80-09-003
April 2009
Office of the Inspector General


Executive Summary


The Audit Division, Office of the Inspector General has  completed an audit of compliance with standards governing Combined DNA Index  System (CODIS) activities at the North Louisiana Criminalistics Laboratory  (Laboratory).  The Federal Bureau of Investigation’s (FBI)  CODIS program blends forensic science and computer technology to provide an  investigative tool to federal, state, and local crime laboratories in the United States, as well as those from  selected international law enforcement agencies.  The CODIS program allows laboratories to  compare and match DNA profiles electronically to assist law enforcement in  solving crimes and identifying  missing or unidentified persons.1 The FBI’s CODIS Unit manages CODIS and is  responsible for developing, providing, and supporting the program to foster the  exchange and comparison of forensic DNA evidence. 
 The FBI implemented CODIS as a distributed database with  hierarchical levels that enable federal, state, and local crime laboratories to  compare DNA profiles electronically.  CODIS  consists of a hierarchy of three distinct levels: (1) NDIS, managed by the FBI as the nation’s  DNA database containing DNA profiles uploaded by participating states; (2) the  State DNA Index System (SDIS), used at the state level to serve as a state’s  DNA database containing DNA profiles from local laboratories; and (3) the Local  DNA Index System (LDIS), used by local laboratories.  DNA profiles originate at the local level,  and then flow upward to the state level and, if allowable, national level.  NDIS is the highest level in the CODIS  hierarchy and enables the laboratories participating in the CODIS program to  electronically compare DNA profiles on a national level. 
The objectives of our audit were to determine if the:  (1) Laboratory was in compliance with  the NDIS participation requirements; (2) Laboratory was in compliance with  the Quality Assurance Standards (QAS) issued by the FBI; and (3) Laboratory’s  forensic DNA profiles in CODIS databases were complete, accurate, and allowable  for inclusion in NDIS.
We determined that the Laboratory  was in material non‑compliance with the standards governing CODIS activities we  reviewed.  Specifically, we noted the  following.

We noted four areas of concern with the NDIS  participation requirements.   Specifically, the CODIS computer screen did not lock after 10 minutes of  non‑use, the CODIS computer backups were not stored in a locked container, and  the Laboratory was not retaining copies of the annual reminder forms for CODIS  users.  We also noted that the Laboratory  was not timely in notifying investigators of match confirmations, and  forwarding external audit reports to the FBI.   The Laboratory was in compliance with the remaining areas of the NDIS  participation requirements that we reviewed.
During our review, we reviewed the Laboratory’s  adherence to select quality assurance standards (QAS).  We did not identify any definitive evidence  that would indicate that the QAS were not being followed in our review of the  Laboratory’s annual audits, external audits, laboratory security, security of  evidence samples, separation of known and unknown samples, and retaining  samples after analysis.  However, our  review of forensic profiles identified issues that had implications that raised  concerns about the Laboratory’s compliance with the QAS.  Specifically, three of the specimens in our  forensic profile sample had incomplete case files that were missing evidence of  DNA analysis.  Additionally, one specimen  was excluded from our sample because the case file for it could not be located.  We therefore could not verify that quality  assurance standards were followed for these profiles, such as the technical  review, controls, and quantitation requirements.
During our review we identified 30 profiles that  were unallowable.  Of these profiles, 17  were unallowable according to FBI allowability standards, 8 were unallowable  because they had been analyzed with an unapproved PCR kit, 3 had incomplete  case files without evidence of DNA analysis or sample source, and 1 profile had  13 loci uploaded but review of the case file could only support the analysis of  9 loci.2 In addition, one of the specimens was excluded  from the list of samples because the Laboratory could not locate the case file.

We made five recommendations to  address the Laboratory’s compliance with standards governing CODIS activities,  which are discussed in detail in the Findings and Recommendations section of the  report.  Our audit scope and methodology  are detailed in Appendix I of the report and the audit criteria are detailed in  Appendix II. 
We discussed the results of our  audit with Laboratory officials and have included their comments in the report  as applicable.  In addition, we requested  a written response to a draft of our audit report from the FBI and the  Laboratory.  The FBI and the Laboratory  responded that they agreed with all five of our recommendations.  The Laboratory response can be found in  Appendix III, while FBI’s response can be found in Appendix IV.  Our analysis of those responses, as well as  the actions necessary to close the recommendations can be found in Appendix V  of this report. 


 

Footnotes

DNA, or deoxyribonucleic acid, is genetic material  found in almost all living cells that contains encoded information necessary  for building and maintaining life.   Approximately 99.9 percent of human DNA is the same for all people.  The differences found in the remaining 0.1 percent  allow scientists to develop a unique set of DNA identification characteristics  (a DNA profile) for an individual by analyzing a specimen containing DNA.
A locus is a  specific location on a chromosome.  The  plural form of locus is loci.





 




Return to OIG Home Page